OFFICE OF INSPECTOR GENERAL


AUDIT OF THE UNITED STATES
AFRICAN DEVELOPMENT
FOUNDATION'S FINANCIAL
STATEMENTS FOR FISCAL
YEARS 2012 AND 2011
AUDIT REPORT NO. 0-ADF-13-003-C
November 15, 2012




WASHINGTON, DC
Office of Inspector General                                                    NOV 15 2012

MEMORANDUM

TO:                  USADF President and CEO, Lloyd O. Pierson

FROM:                AIG/A, Tim Cox/sf

SUBJECT:             Audit of the U.S. African Development Foundation's Financial Statements for
                     Fiscal Years 2012 and 2011 (Audit Report No. 0-ADF-13-003-C)

With this memorandum, the Office of Inspector General (OIG) transmits the audit report
prepared by the certified public accounting firm of Gardiner, Kamya & Associates, PC, on the
financial statements as of September 30, 2012 and 2011, of the U.S. African Development
Foundation (ADF). OIG contracted with this independent auditor to audit the financial
statements.

The independent auditor expressed an unqualified opinion on ADF's fiscal year 2012 financial
statements and notes. The report states that the financial statements presented fairly, in all
material respects, ADF's financial position, the net cost of operations, the changes in net
position, and budgetary resources for the years ended September 30, 2012 and 2011, in
conformity with accounting principles generally accepted in the United States of America.

The report contained no material weaknesses or significant deficiencies in ADF's internal control
over financial reporting and no instances of noncompliance with selected provisions of
applicable laws and regulations.

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted government auditing standards issued by the
Comptroller General of the United States; and the Office of Management and Budget Bulletin
No. 07-04, "Audit Requirements for Federal Financial Statements", as amended.

In connection with our contract, we reviewed the independent auditor's related audit
documentation. Our review was different from an audit conducted in accordance with the
auditing standards discussed above and was not intended to enable us to express, and we do
not express, an opinion on ADF's financial statements. Also, we do not express conclusions on
the effectiveness of ADF's internal control or on ADF's compliance with other laws and
regulations.

The independent auditor is responsible for the attached auditor's report dated October 31, 2012,
and the conclusions therein. Our review disclosed no instances where the independent auditor
did not comply, in all material respects, with the auditing standards discussed above.

u.s. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
htIp://oig.usaid.gov
                                              2



The Office of Inspector General appreciates the cooperation and the courtesies extended to our
staff and the staff of Gardiner, Kamya & Associates, PC, during the audit. If you have any
questions concerning this report, please contact Rohit Chowbay at (202)712-1317.
         Certified Public Accountants
                                                                                       1015 18th Street, NW
         & Consultants                                                                      Suite 200
                                                                                      Washington, DC 20036
                                                                                        Tel: 202-857-1777
                                                                                        Fax: 202-857-1778
                                                                                        www.gkacpa.com




 
 

    United States African Development Foundation
    PERFORMANCE AND ACCOUNTABILITY REPORT

                              Fiscal Year 2012 
 
 
 
 




                                             
                                        Member of the American Institute of Certified Public Accountants
THIS PAGE INTENTIONALLY LEFT BLANK
                                                         TABLE OF CONTENTS


Section I: Overview

    Message from the President..............................................................................................................1
    Management’s Discussion and Analysis ..........................................................................................2
    Message from the CFO...................................................................................................................26

Section II: Independent Auditor’s Reports

    Independent Auditor’s Report on Financial Statements.................................................................27
    Independent Auditor’s Report on Internal Control over Financial Reporting................................29
    Independent Auditor’s Report on Compliance with Laws and Regulations ..................................31

Section III: Financial Statements and Notes

    Financial Statements:
        Balance Sheets .........................................................................................................................33
        Statements of Net Cost.............................................................................................................34
        Statements of Changes in Net Position ....................................................................................35
        Statements of Budgetary Resources.........................................................................................36
        Statements of Custodial Activity .............................................................................................37
        Notes to Financial Statements..................................................................................................38

Section IV: Other Accompanying Information................................................................................52
THIS PAGE INTENTIONALLY LEFT BLANK
SECTION I



OVERVIEW
THIS PAGE INTENTIONALLY LEFT BLANK
October 26, 2012

                                MESSAGE FROM THE PRESIDENT


I am pleased to submit the FY 2012 Performance and Accountability Report for the United
States African Development Foundation (USADF). USADF is committed to achieving the
highest levels of effective and efficient operations, full transparency and accountability in
financial reporting, and full compliance with applicable laws and regulations.

USADF has a unique development assistance mission in the Federal government. The Foundation works
directly with marginalized populations across Africa, with a focus on long-term economic development.
Local economic development is the key to poverty alleviation; therefore a majority of USADF funding
goes toward community-based groups. A major component of USADF’s approach is directed toward
helping to develop and grow cooperatives and associations in Africa that produce both economic gains
and quality of life improvements. These gains are measured in terms of more jobs, improved incomes,
better work conditions, and greater access to educational and health services.

USADF’s operating model is one of low overhead to maximize the amount of appropriated dollars that
provide direct economic development assistance to the most marginalized populations in Africa. In FY
2012, the Foundation began a major outsourcing effort as a means to lowering administrative costs.
USADF has pledged to be a Federal agency model of openness and transparency and continues to make
program activities and results available on our web site.


Our vision is to help end the poverty of thousands of marginalized groups across Africa. Our success is
measured in lives improved, new economic opportunities created, and goodwill established. Our mission
is as applicable today, if not more so, than when USADF was founded in 1980. We look forward to
continued cooperation with Congress, U.S. Government agencies, and friends and experts throughout the
African development community.



Signed:

/s/

Lloyd O. Pierson

President and CEO 




                                                  1
                                            MANAGEMENT'S DISCUSSION AND ANALYSIS


United States African Development Foundation Mission and Organizational Structure


Purpose:                Fostering hope, growth, and goodwill in Africa.
Vision:                 To end the poverty of a million Africans by investing in their ideas.
Mission:                To provide economic development assistance for marginalized populations in Africa. These
                        populations generally are in conflict or post-conflict areas and the work of USADF is in the
                        national interest of the United States.



The United States African Development Foundation (USADF or the Foundation), created in 1980, is an
independent Federal agency established to support African-designed and African-driven solutions that
address grassroots economic and social problems. The Foundation is a public corporation with a seven
member Board of Directors who are nominated by the United States President and confirmed by the U.S.
Senate. They serve for a fixed term. The Board of Directors selects and names the President and CEO of
USADF.

The United States African Development Foundation provides grants of up to $250,000 to indigenous
African organizations that benefit under served and marginalized 1 groups. The Foundation has a unique
mission among U.S. foreign assistance programs, by-passing layers of inefficiencies and working directly
with the neediest communities in Africa. The Foundation uses a participatory approach to actively
engage marginalized local community groups1 or enterprises in the design and implementation of
development projects. This approach ensures these programs are distinctively African initiated and led,
resulting in outcomes that best address the real needs of the community. Project success and long term
impact is further enhanced through USADF efforts to establish a network of local support and technical
service providers across Africa. Partner organizations are local non-governmental organizations that
provide project design, implementation and management support to USADF grant recipients. Grant
success is measured in terms of jobs created and sustained, increased income levels, and improved social
conditions.

Over the past 30 years, The United States African Development Foundation has established a foreign
assistance model that works. During this period, USADF has worked in more than 26 countries and has
invested more than $250 million in African initiated and led development projects. USADF projects are
designed to improve economic and social conditions for some of the poorest, most neglected communities
in the world. Congressional appropriations, administered by USADF, are tangible expressions of good
will from people of the United States to the people of Africa. Support for USADF programs provide an
opportunity for economic growth and social development in places where little other hope and assistance
exist.


                                                            
1Marginalized groups are people who have been disenfranchised from the political, economic and social fabric of the
broader society and who have significant needs that currently are not being addressed.

                                                               2
As of April 30, 2012 USADF had 395 active project grants and small grants in 23 countries,
representing more than $63 million invested in enterprises, farmer associations, cooperatives,
and community groups that improve food production, increase income levels, and improve social
benefits in poor communities.


The Staffing Table below shows the personnel required to support USADF operations across a three year
period. USADF further simplified organizational structures in 2012 to improve operational efficiencies.

Staff Table

Professional Staffing Levels     End of FY 2009     End of FY 2010      End of FY 2011     End of FY 2012

Direct Federal Hires                   25                 25                  29                 30

PSC - Washington                       13                  9                  7                   5

PSC - Field                            23                 23                  17                 26

Total                                  61                 57                  53                 61



USADF Strategic Priorities

The following seven core principles serve as guidelines for all USADF management planning, budgeting,
and evaluation activities. These priorities help ensure that USADF stays true to its authorizing legislation
and mandate.

1. High effectiveness, low overhead: The efficient use of taxpayer funds is paramount in every decision
   made. While accomplishing tangible results is important, it is essential that USADF is accountable to
   use public monies in the most cost effective manner possible. Maintaining this priority moves
   USADF toward achieving the lowest overhead rate in the Federal government.


2. Focus on marginalized communities: USADF is the only United States Government agency with a
   specific mission to provide direct development assistance to the most marginalized, populations in
   Africa. These populations can be identified by geography, ethnicity, gender, age, or disability, and
   are often disenfranchised from the political, economic and social fabric of the broader society.
   Typically, USADF provides development grants to communities and groups living in the most
   difficult, challenging areas of sub-Saharan Africa and lacking access to traditional domestic or
   foreign development assistance.

3. Investing in Africans and their ideas: USADF takes participatory development principles seriously.
   The Foundation trusts Africans to understand the challenges they face and to know the best
   approaches to resolving them. USADF also ensures that grantees have access to assistance from
   African experts in the design and implementation of projects. This approach ensures that outcomes
   will best address real community needs. USADF’s development model empowers Africans in the
   decision-making and implementation process.



                                                     3
4. Addressing social development needs and ensuring lasting economic results: The majority of the
   USADF program portfolio is devoted to income generating projects that produce jobs, better income
   levels, and tangible social benefits. Social benefits include skills training, nutritional and hygiene
   training, and basic vocational education. In cases where the right opportunities exist, USADF helps
   marginalized populations develop their capacity to join the global economy.


5. Encouraging and expanding African management: All USADF programs in Africa are managed by
   Africans. There are no expatriate offices and there is minimal use of outside consultants. When
   consultants are required most often African experts are selected. This approach helps make USADF
   fundamentally different from other development organizations. USADF values and has policies that
   ensure that Africans take leadership roles in developing, implementing, and managing foreign
   assistance.


6. Maintaining the highest level of openness and transparency in the U.S. Government:      As an
   organization primarily dependent on U.S. taxpayer funds, management believes that an open and
   transparent organization is the best approach. The USADF website and other communication
   vehicles are continually updated to make it simple for people to know more about Africa, what
   USADF is doing, and exactly how program funds are being used.


7. Developing an equal opportunity, results driven staff team: that provides equal opportunities, and
   rewards hard work, dedication to the mission.

Supporting Administration Priorities in Marginalized Area

With more than one billion people in the world suffering from chronic hunger, the international
development community has made improving ‘food security’ a priority item. The global community often
defines the term food security as people having a reliable source of food and sufficient resources to
purchase food. From its inception USADF has focused the majority of its grants on improving
agricultural production and improving the income levels of marginalized groups across Africa. USADF’s
participatory development approach ensures that effective food security solutions come from those closest
to the problem.

The majority of USADF grants directly support improved agricultural productivity by providing access to
better inputs such as seed, feed, fertilizer, machinery, and irrigation systems. Most all grants also provide
access to improved farm knowledge, training in financial management, and natural resource management.

In addition to improving the means of production, USADF grants also focus on helping marginalized
groups expand their market access. Higher incomes are achieved when groups gain the abilities to take
greater advantage of local, regional, and international markets. To achieve this, USADF grants support
improved means of transportation, better product storage, better product distribution and marketing, and
improved access to market information.

The table below shows where USADF grant funding economic development grants for marginalized
communities corresponds to other Administration foreign assistance initiatives:




                                                     4
                           Active                 Active Value
(per 4/30/12)
                           Projects                   (USD)

Benin                         26                    3,899,820

Burkina Faso                  28                    3,184,791

Burundi                       16                    2,132,983

Guinea                        5                      819,502

Liberia                       27                    3,644,884

Mali                          12                    2,429,956

Mauritania                    21                    2,969,850

Niger                         14                    3,089,548

Rwanda                        18                    3,638,669

Senegal                       20                    2,828,608

Kenya                         18                    2,093,625

Malawi                        20                    3,459,628

Tanzania                      21                    3,621,809

Uganda                        30                    5,934,918

Zimbabwe                      17                    3,218,572

Somalia                       6                     1,428,582

Botswana                      7                     1,408,664

Cape Verde                    22                    3,616,487

Ghana                         7                     1,696,518

Nigeria                       35                    4,373,376

Swaziland                     1                      237,534

Zambia                        24                    3,647,422

        Total                395                   63,375,746

Small Grants                 121                     959,534




             *Bold Italics note   a Feed the Future Country




                                    5
In FY 2012, USADF continued a new food security and economic development program in the Turkana
region of Kenya and a focused jobs training program in three regions of Somalia. The ability of USADF
to move rapidly into post conflict zones, with due diligence, assured results and impact, is a major
comparative advantage for the Foundation and for the United States.

Program Performance Highlights
 

Even though foreign assistance to Sub-Saharan Africa is extensive, there remains large numbers of
marginalized communities untouched by development assistance. USADF grant funds specifically target
these underserved areas in Africa by providing direct development assistance to help ensure these highly
vulnerable populations create sustainable jobs, improve income levels, and achieve social benefits. The
majority of USADF grants focus on economic development activities in agricultural production and other
food security related areas. The results of these projects help rural farmers grow more food to feed their
families and sell more of their products in commercial markets. Increased revenues generate greater
income that enables people to purchase other goods and services such as food, education, healthcare, and
housing. These basic outcomes significantly improve the quality of life for individuals and communities.
The following measures, based on USADF’s most recent 2 annual assessment of program performance
indicators, provide an overview of the positive impact USADF grants are having in marginalized
communities across Africa.

$230 Million of New Economic Growth in Marginalized Communities

Jobs and better incomes require both viable and long-term economic activities in communities where
marginalized people live. Based on USADF’s most recent performance assessment, USADF grants
generate an additional 3.5 dollars of new revenues for each one dollar disbursed. If this rate is applied to
83% 3 of USADF’s current grant portfolio ($63 million), then one may infer that USADF investments
help spur more than $183 4 million of new economic activity over the grant period (3-5 years) in many of
Africa’s most underserved populations. An additional $9 million of new economic activities occurs from
the social and capacity building grants. USADF performance measures confirm that at least 77% or more
of USADF grantees continue to operate for a three year period after grant funding ends. This creates an
additional $40 5 million of long-term economic growth potential in marginalized communities. This
results in a combined benefit of more than $230 million of new economic growth. On average, that
equates to more than $0.56 million 6 of new economic activity circulating in each community where
USADF funds a development project over the effective life of the grant.




                                                            
2
  Annual Performance Report for FY 2010
3
  83% of the active grant population focuses on economic growth, 15% focuses on social, not for profit projects, and 2% accounts for grants that
may be terminated prematurely.
4
  New Economic Activity = (activity from income generating development projects) + (activity from social development projects); i.e. (3.5 x
$63M x 83%)+ ($63M x 15%) = $192 Million; accounting for 2% early terminations
5
  83% of population are growth grants x 77% sustainability rate x additional revenue growth estimated to at least equal the value of the original
grant $63 Million (83% x 77% x $63M = $40M)
6
  Total Economic growth / active projects [$192M + $40M) / (420 x 98%) = $0.56M]


                                                                        6
1,000,000 Beneficiaries Across Africa

Measuring actual job growth and direct economic impact is very difficult and expensive for development
organizations. It is particularity difficult for an agency the size of USADF which operates in very
challenging environments. However, based on USADF’s most recent performance analysis of quarterly
and annual reporting data, a typical USADF grant provides a direct positive economic benefit for an
average of 620 workers and/or farmers. If this rate is applied to 83% of USADF’s current grant
population (420 projects), then USADF can estimate that its current portfolio positively impacts at least
216,000 people in areas of severe economic hardship. While this is a modest number, it reasonably can
be extended by accounting for the number of family members who also benefit from the increased income
of the workers and farmers. Public demographic data 7 suggest that a mean household family size in Sub-
Saharan Africa is, at least, five people. Using this value raises the impact level of USADF’s current
portfolio of projects to over 1,000,000 beneficiaries. The social benefits from this increased economic
activity often translates into better diets, better access to education, access to clean water, and better
health care for those living on the edge of poverty in Africa’s most marginalized and underserved
communities.


 

 

 

 

 

 

 

 

 

 

 

 

 

 

                                                            
     See USAID supported www.StatComplier.com  application for additional details.  
7




                                                                        7
USADF Operational Trends

USADF operational performance trends continued to make progress in FY 2012 as a result of the
on-going implementation of strategic reforms that began in FY 2008. The following section
highlights several of these key performance indicator trend lines.


Major Achievements in 2012



1. Positive Trend for Grants and Countries

   $21M in New Project and Partner Grants Funding.
   Funding in 26 Countries Up 46% from 2007
   Improved Workload Distribution and Obligation Rate


    More Grants ($ million)                                 More Countries




                                                                              



                              Rate of Obligations ($M) - Better Workload Distribution




                                                      8
2. More Dollars Disbursed per Year and Faster Grant Disbursement Times

       Foreign assistance funds can only achieve results if they are disbursed and put to productive
       use. In 2012, USADF continued to improve the speed and volume of its grant disbursement
       performance.

      Faster Disbursements - 1st Disb. improved from 160 days in 2007 to 48 days in 2012
      Amount of project funds disbursed in 12 month period improved by 500% from 2007


    Days to 1st and 2nd Disbursements                              $ Million Disbursed




3. Better Strategic Partner Funds Utilization

In 2011, USADF received $0.8 million in Strategic Partner (SP) funds and applied $2.5 million toward
FY 2011 projects. There is a balance of $1.7 million in SP funds available for use in Benin, Botswana,
Guinea, Mali, Nigeria, Rwanda, and Uganda in FY 2012. USADF plans to use $2.25M in SP funds in
2012, and an additional $1.95 million of SP funds in 2013.



Strategic Partner Funds                 2007   2008        2009         2010         2011   2012

New SP Funds Collected              $3.4M      $4.7M       $3.3M       $4.8M        $0.8M   $1.3M
SP Funds Applied to Projects        $2.3M      $1.0M       $4.0M       $2.9M        $2.5M   $1.6M


4. Improved Internal Controls

In 2012, the USADF Internal Audit Unit continued implementing its systematic approach to providing an
independent review of the financial management and accounting practices associated with U.S.
government funds provided to project grants, partner grants, and country coordinator offices.




                                                       9
Financial Audits Types         FY11 Scheduled     FY11 Conducted     FY12 Scheduled FY12 Conducted

Projects Grants                        54                54                61             61
Partner Grants                         19                19                19             19
Coordinator Offices                     6                 6                 7              7
* planned to be conducted no later than 9/30/12

5. Lower Cost of Operations

USADF continues to lower the cost of delivering a dollar of foreign assistance to marginalized
communities in Africa. From 2007 to 2012, the cost of providing a grant dollar to Africa has
been reduced by more than 38 percent. The chart below shows the progress USADF has made in
improving productivity and lowering unit costs since 2008. USADF is planning to lower its
operating expenses by 10 percent (from $9.4 million to $8.5 million) through additional
restructuring actions that may include staff reduction and other gains realized from outsourcing
core administrative functions in prior years.
                                    Lower Costs to Deliver Programs in Africa




6. Positive Work Environment

USADF’s seventh core operating priority is to “develop an equal opportunity, results oriented work
environment”. This objective is achieved by making these workplace values a key part of daily
operations through leadership, communications, and accountability. Since 2007 USADF has achieved
greater levels of job satisfaction and has consistently outperformed the Federal workplace averages in
OPM’s annual all employee survey categories. The chart below shows the percent of USADF survey
participants responding positively about the ADF workplace compared to the 2008 Federal benchmark.




                                                       10
Three Year Workplace Survey Trends

100%                                                                                                      ADF 07

                                                                                                          ADF 09

                                                                                                          ADF 11

                                                                                                          ADF 12

                                                                                                          Fe d 11 Benchmark
 80%
                                            82%

                    77%                           78%
                                                                                            76%
                                      74%                                                                     74% 74%
                                                                   72%                                                  73%
                                                                                                                 68%
                          70%
              68%                                                        69%                      68%
 60%                                    61%                                              60%
                58%                                           60%
                                                                                                        59%
                                                                 54%
                                                                                      65%
                                50%
        47%
 40%                                                    43%
                                                                               41%




 20%




  0%
              Retention          Lea dership In dex     Per forman ce Index          Talent Ind ex      Satisfa ction In dex




* Survey Population is ADF/W staff, PSC and Partner Staff in Africa

7. Increased Transparency for Open Government

In order to make USADF a model of openness and
transparency in the Federal government, USADF has
simplified the steps needed for the public to access
information about its operations and programs. The
USADF website contains a wide range of information
about current and historical programs, budgets,
performance information, and various USAID Inspector
General Audit reports. In FY 2010, USADF improved
access to grant information, locations, and grant
photographs through an interactive linkage to “Google
Maps” and “Google Earth”. These tools help people better understand how funds are being used
to support marginalized communities in Africa. The grant information provided includes budget
details and specific project goals and objectives. In FY 2010, USADF added new Open
Government features to its website to make even more information easily available to the public.
See www.usadf.gov for more details.

Program Quality Assurance through Monitoring and Evaluation

Achieving positive program results requires accountability, effective monitoring of grant
activities, and the regular evaluation of programs. These management actions provide the
feedback information necessary to access program effectiveness, to learn from mistakes, and to

                                                              11
make corrections to future program plans and resource allocations.


Monitoring – Building Evidence of What is Working

Closely tracking the progress of grant implementation plans and budgets is an important grant
management task that can help increase the likelihood that a grant will result in a successful outcome.
Monitoring can identify early problems and ensure that additional support is applied. In 2009, USADF
updated the monitoring roles of the Country Program Coordinator and Regional Director to better ensure
Partners were providing the technical support to Grantees consistent with the terms of their cooperative
agreements. Monitoring includes regular reviews of Grantees’ quarterly reports, and regular sites visits to
Grantees by Partner Organizations and by USADF staff. Each project grant with a value greater than
$100,000 also receives an independent financial audit on its use of USADF grant funds. At the end of a
grant, a Grant Close-Out procedure is completed for each grant. The close out process includes a final
accounting of grant funds, an assessment of the grant’s outcomes, and a determination on the
sustainability of the project. Every six months, Regional Directors conduct biannual portfolio
performance reviews with their country teams to monitor and assess project performance within their
respective regions. USADF management also conducts biannual program reviews with Regional
Directors to ensure there is a clear line of accountability for the overall effectiveness of grant programs.

The table below is a copy of a recent biannual program performance review. It contains summary
performance assessment information about individual grants within a particular country. Based on the
review, grants are given a performance grade using a standard grading and assessment process. Grants
with lower grades (C – F) are given special attention from Partner Organizations to help remediate the
project difficulties. As a last resort grants with failing grades may be terminated.




                                                    12
Table 9 - Portfolio Performance Status for Period: Through 03/31/12

                                    Active Value    % Value                                                      Project GRADES3
                         *Active                                 FY11       Date of Last
                                                     Disb
                                                                  Days        Project       GPA
                                                                2nd Disb1    Review2                     A       B        C       D       F
                         Projects      (USD)
                                                      TD

    Benin                 26        3,899,820       70%         73          Apr 2012        3.3      11      12       1       0       1
    Burkina Faso          28        3,184,791       39%         135         Dec 2011        2.6     9       3        9       4       1
    Burundi               16          2,132,983     45%         187         Apr 2012        2.1     1       3        7       4       0
    Guinea                5         819,502         86%         N/A         Mar 2012        2.8     0       4        1       0       0
    Liberia               27        3,644,884       60%         155         Feb 2012        2.4     3       13       4       6       1
    Mali                  12        2,429,956       69%         114         Mar 2012        2.9     5       3        2       1       1
    Mauritania            21        2,969,850       34%         139         Dec 2011        2.8     6       7        4       3       0
    Niger                 14        3,089,548       78%         112         Mar 2012        3.6     8       5        0       0       0
    Rwanda                18        3,638,669       52%         74          Apr 2012        3.3      10      3        3       1       0
    Senegal               20        2,828,608       63%         103         Mar 2012        3.3     8       9        1       1       0
    Kenya                 18        2,093,625       38%         110         Apr 2012        2.8      0       4        1       0       0
    Malawi                20        3,459,628       78%         102         Mar 2012        3.4     12      2        3       1       0
    Tanzania              21        3,621,809       71%         127         Apr 2012        3.1     9       5        4       1       0
    Uganda                30        5,934,918       76%         116         Mar 2012        3.4     14      11       1       1       0
    Zimbabwe              17        3,218,572       62%         108         Apr 2012        3.2     6       5        1       1       0
    Somalia               6         1,428,582       26%         143         Mar 2012        4.0      3       0        0       0       0
    Botswana              7         1,408,664       73%         N/A         Apr 2012        2.3     2       1        2       1       1
    Cape Verde            22        3,616,487       65%         98          Apr 2012        3.0     6       12       2       2       0
    Ghana                 7         1,696,518       93%         n/a         Apr 2012        3.1     2       4        1       0       0
    Nigeria               35        4,373,376       69%         98          Apr 2012        3.1     11      17       3       2       0
    Swaziland             1         237,534         92%         N/A         Apr 2012        3.0     0       1        0       0       0
    Zambia                24        3,647,422       68%         109         Apr 2012        2.7     4       8        7       2       0
    Total                 395        63,375,746     63%         117 avg                     3.0      130     132      57      31      5
    Small Grants          121       959,534         85%


1    Active Projects = any grant that expires after 3/31/12, (not Partner CAs or Self Help Small Grants)
2    Active Value = sum of obligated USD amount for all active grants, (not Partner CAs or Self Help Small Grants)
3    % Disb = sum of all disbursement for active grants through 3/31/12 in USD / Active Value
4    Avg Days to 2nd Disbursement equals the average days from obligation date to 2nd disbursement date for FY11 projects disbursed in FY11 and
     FY12 - the goal is 135 days. (Note, in April 2013, the review period will shift to disbursement of FY12 grants.)
5    Date when last Comprehensive Portfolio Review was conducted by Regional Director and field team.
6    Grades of active projects greater than six months old.
     A = 80% or better project achievement levels ,and meets disbursement plans, and provides quality quarterly reports on time.
     B = 50% or better project achievement levels, and meets disbursement plans, or provides quality quarterly reports on time.
     C = 50% or better project achievement levels, or meets disbursement plans, or provides quality quarterly reports on time.
     D= meets none of the performance categories, or two consecutive “C”.
     F= after two consecutive “D” grades.

7    Percent Projects graded 90% = 355 / 395; (37% A, 37% B, 16% C, 9% D, 1% F)




                                                                      13
Evaluation

To fully understand and assess the actual outcomes and impacts of a grant, a program evaluation activity
is necessary. To maintain the integrity of the evaluation, it is desirable for an evaluation to be conducted
by an independent source. An evaluation budget is set aside each year to support independent assessments
of program effectiveness. In FY 2009, the Evaluation Unit commissioned POSDEV, an African NGO
based in Ghana to conduct an extensive program and grant evaluation across 10 countries in Africa
(Benin, Botswana, Cape Verde, Ghana, Guinea, Liberia, Niger, Swaziland, Uganda, and Zambia).
Highlights from POSDEV’s report follow. The results reflect client experiences with USADF policies,
procedures, and support systems that were in place between 2001 and 2008. Thus, the responses do not
necessarily reflect current experiences with USADF.



Some Key Findings of the Client Surveys:



             Item                                                               Median Score

             Project idea originated from the Grantee?                             96%

             Country representative office rated professional or better?           96%

             Other tech assistance & training in implementation very
                                                                                   94%
             useful ?

             USADF-required training on financial management and
                                                                                   93%
             reporting very useful or better

             Project development and review process good or better                 90%



Other program evaluation efforts include feedback from external audit activities conducted by the OIG
based in Dakar Senegal. Over a recent five year period program audits have occurred in Ghana (2008),
Senegal (2008), Nigeria (2011) and Cape Verde (2012). With each audit and resulting recommendations,
USADF is able to improve its operations and program initiatives to improve the effectiveness of
achieving its mission.

In FY13 and FY14, USADF has allocated resources for independent in-country program evaluations in
Kenya, Rwanda, and Senegal to assess program effectiveness and the suitability of current performance
indicators. A similar in-country program evaluation was conducted in Benin in FY12. The positive
findings were used to help assure the Government of Benin to continue with co-investing (approximately
$500,000 per year) in local development grants as a Strategic Partner.




                                                    14
Acting on Monitoring and Evaluation Evidence

USADF utilizes information gained from evaluation and monitoring activities to shape policies, program
plans and budgets, and internal processes. Notable examples come from the Nigeria evaluation; the
broader POSDEV assessment; and, the African Forum Marginalized Populations Study. In the case of the
Nigeria program audit, USADF formally eliminated grant programs associated with housing related
projects. The POSDEV assessment reinforced efforts to simplify the grant application documentation and
modify review and approval processes to ensure the grantee initiated project concepts and proposed
solutions were better preserved throughout the lifecycle of the grant. The African Forum studies
reinforced USADF’s strategic decision to focus economic development resources solely on the highly
marginalized groups and communities in Africa. Results from the annual employee survey (see item 6
above) led USADF to establish a training unit to better equip field staff to carry out duties. The result has
been more consistent, higher quality grant making products.

As noted in several of the results summaries above (1-5) USADF has utilized internal reviews and
analyses to improve disbursement processing times, simplify grant review and approval processes, lower
costs in Field Offices, lower costs to deliver and manage grant dollars, and achieve highly predictable
country allocation budget targets.

A recent OIG program evaluation report in Cape Verde (2012) underscores the progress USADF has
made in using assessments to improve their program effectiveness when they said … “The audit team
found that USADF’s activities were expanding local capacity to promote and support grassroots
participatory development. Estrategos and nine of the ten grantees had accomplished or were on track to
accomplish their project goals, which were general objectives like improving beneficiaries’ quality of life.
(The tenth grantee’s project had not been active long enough for the auditors to make a judgment.) To
date, the program has led to new jobs, increased incomes, improved living standards, and less reliance
on imported goods for USADF beneficiaries. Perhaps even more notable was that the grantees
demonstrated increased managerial and technical capacity to conduct development activities—an
improvement that should help sustain the program’s impact.” (AUDIT REPORT NO. 7-ADF-12-008-P
page 1).

Building Agency Capacity

In FY 12 USADF has taken steps to improve its ability to gather and utilize evaluation information to
improve program effectiveness and cost efficiencies. Steps in FY12 include a transition to a more
integrated grant, contract and financial accounting system that provide better financial tracking
information and reporting capabilities for improved management and analysis. USADF’s bi-weekly
program status meetings and its bi-annual program performance reviews create an opportunity for Field
Operations staff and USADF management to access what is working and what areas require adjustments.
USADF is refining its internal annual budgeting processes to ensure a greater linkage between strategic
program priorities and resource allocations. The improvements also include a higher degree of
participation by budget managers that in turn leads to greater ownership and accountability for results.
USADF will be conducting a series of FY12 program funding reviews with Field Operations to evaluate
areas where it can improve on grant design processes, lower grant management transactions, and
consolidate monitoring and performance management practices.



                                                     15
Analysis of Financial Statements

USADF is pleased to report that in FY 2012, the Foundation continued to receive an unqualified opinion on all
financial statements from its independent auditors, GKA, P.C. Since FY 2009, USADF has received an
unqualified opinion on the Balance Sheet, the Statement of Net Costs, the Statement of Net Position, and
the Statement of Budgetary Resources.

Assets

USADF’s Fund Balance with Treasury increased, from $32.3 million at the end of FY 2011 to $32.6
million at the end of FY 2012. The difference of $217,178 is due to continued efforts to improve the speed
of grant closeouts.

Cash and Other Monetary Assets consist of foreign currency donations made by African governments and
private-sector entities with which USADF has established strategic partnerships. The funds are held in
bank accounts in each country where a strategic partnership is in effect. These assets decreased
significantly, from $6.3 million at the end of FY 2011 to $4.9 million at the end of FY 2012.

Liabilities and Net Position

Liabilities did change significantly from FY 2011 to FY 2012. USADF’s Net Position (the sum of the
Unexpended Appropriations and Cumulative Results of Operations) at the end of 2012, as shown on the
Balance Sheet and the Statement of Changes in Net Position was $40.4 million, a $1.4 million decrease
from the previous fiscal year’s balance of $41.8 million. This decrease is explained in the subsequent
section regarding the Fund Balance with Treasury. Unexpended Appropriations of $35.0 million
represents funds appropriated by the Congress for use over multiple years that were not expended by the
end of FY 2012. Cumulative Results of Operations of $5.4 million consists primarily of funds donated by
strategic partners that were not expended by the end of FY 2012.

Net Cost of Operations

The Net Cost of Operations is defined as the gross (i.e., total) cost incurred by the Agency, less any
exchange (i.e., earned) revenue. Program costs assigned to program activities, such as grants and
cooperative agreements, increased from $23.2 million in FY 2011 to $23.8 million in FY 2012, due to
systematic improvement of the processing of grants. Costs not assigned to programs, such as office
expenses, staff salaries, and other administrative costs, slightly decreased from $9.3 million in FY 2011 to
$9.2 million in FY 2012 as a result of the priority set by USADF management to move toward achieving
the lowest overhead rate in the Federal government.

Forty-One percent of USADF’s non-program expenses are related to payroll. Forty-three percent relates to
rent, travel, supplies, publications, training, contractual services, and information technology; the
remaining sixteen percent relates to the on-the-ground presence that USADF maintains in African
countries with the field coordinator offices.




                                                     16
Budgetary Resources

USADF’s budgetary resources consist of its annual appropriations from Congress, which are available for
two years, and donations from strategic partners. USADF’s FY 2011 appropriations were $29.4 million;
its FY 2012 appropriations were $30 million. USADF received $1.6 million in FY 2012 donations from
strategic partners, representing an increase of $1.3 million from the $207 thousands received in FY 2011.

Unobligated Balances decreased from $10.5 million at the end of FY 2011 to $5.7 million at the end of FY
2012. The Obligations Incurred line increased from $30.1 million in FY 2011 to $39.5 million in FY
2012. The increase of $9.4 million is due to multiple factors among which is the increase in the
appropriate fund, a substantial collection of donated funds, and an improvement in grant processing.




                                                   17
USADF Internal Controls, and Legal Compliance




                                                               

October 25, 2012

General FMFIA Assurance Statement

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the statutory
basis for management’s responsibility for and assessment of accounting and administrative internal
controls. Such controls include program, operational, and administrative areas, as well as accounting and
financial management. The Integrity Act requires federal agencies to establish controls that reasonably
ensure obligations and costs are in compliance with applicable law; funds, property, and other assets are
safeguarded against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are
properly recorded and accounted for to maintain accountability over the assets.



It is my informed judgment, as the head of the United States African Development Foundation that I
make an unqualified statement of assurance (no material weaknesses reported) will be identified in the
audit report to the adequacy and effectiveness of USADF internal controls to achieve the objectives of
effective and efficient operations, reliable financial reporting, and compliance with applicable laws and
regulations.



/s/

Lloyd O. Pierson, President

 




                                                   18
                                                                

October 25, 2012

Internal Control over Financial Reporting Assurance Statement

The United States African Development Foundation’s management is responsible for establishing and
maintaining effective internal control over financial reporting, which includes safeguarding of assets and
compliance with applicable laws and regulations. In addition to the financial audit that is being
conducted, USADF continually assesses the effectiveness of internal controls over financial reporting
both at headquarters in Washington, D.C. and in Africa field offices and management has recently
concluded a thorough review of financial operations. Implementation of those recommendations is
underway. USADF assesses the effectiveness of USADF' internal control over financial reporting and is
working toward full compliance with OMB Circular A-123, Management’s Responsibility for Internal
Control. Based on the results of our assessment, the USADF can provide unqualified assurance as of this
date that there are no material weaknesses that will be identified in the audit report.



/s/

Lloyd O. Pierson, President




 




                                                   19
                                                            

October 25, 2012

Annual Assurance Statement on Financial Management System

The United States African Development Foundation has been using the Oracle Federal Financial System
hosted by the Administrative Resource Center of the Bureau of Public Debt (ARC/BPD), Department of
Treasury since October 1, 2011. Previously, from FY 2004 to the end of FY 2011 USADF used the
Oracle Federal Financial System hosted by the National Business Center (NBC) under Department of
Interior. Based on the results provided in the FY 2012 Statements on Standards for Attestation
Engagements (SSAE) 16 Report on ARC/BPD’s Oracle Federal Financial System, and the related
complementary controls in place at USADF, I am able to provide substantial compliance that the
USADF’s Financial Management Systems conform to government-wide requirements mandated by the
FFMIA and OMB Circular No. A-127, Financial Management Systems, section 7.



/s/

Lloyd O. Pierson, President



 




                                                20
OMB Circular A-123 Compliance Progress

In 2011-12, management strengthened its internal control environment by formalizing annual
internal control assessment process. This enhanced approach was established as an institutional
practice to increase confidence in the level and quality of Management’s Annual Statements of
Assurance on internal controls. The adoption of a continuous improvement internal control
process will include:

(1) A regular review of the organizational culture and structure: areas of authority and
    responsibility and delegations, reporting hierarchies, human capital policies, expectations of
    integrity and ethical patterns of behavior.
(2) A risk assessment of internal and external factors and previous findings.
(3) Assessment of policies, procedures, mechanisms, segregations of duties, physical controls on
    assets, authorizations processes, documentation and access to documentation, including those
    related to information systems, and mechanisms of communication of information internally
    and externally.
(4) Monitoring the effectiveness of these processes as a normal course of business, including:
    identification and reporting of deficiencies and consideration and, where appropriate,
    planning and implementing corrective action.
A directive issued by the President on November 3, 2009 formally outlined the steps and timeframes
associated with the formal implementation of USADF’s enhanced internal control assurance process. As
a result, an Internal Control Assessment Committee (ICAC) was established and has completed a risk
assessment matrix on USADF major business processes. Based on that assessment the ICAC conducted a
business evaluation and had a draft report and recommendations approved by the President. The ICAC
met in FY2012 to update the risk assessment matrix and plan for a new series evaluation activities.

Internal Audit Function

Prior to the IG audit activities, USADF management moved to establish and strengthen an independent
internal audit capability that reports directly to the USADF President and the Board of Directors. The internal
audit function focuses its efforts on assessing compliance with USADF financial policy and practices at the
Country Coordinator Offices, USADF Partner Organizations, and the USADF project grantees. Each
assessment is followed by an Internal Audit Report and follow-up project plan.

In 2012, the USADF Internal Audit unit made significant progress in implementing a systematic plan and
approach to review the financial management and accounting for USADF funds provided to project grants,
partner grants, and country coordinator offices. During FY 2012, USADF oversaw field audits for 61 grants,
seven Country Coordinator offices, and 19 Partner Cooperative Agreement grants.




                                                      21
Integrated Contracting and Financial Management Practices

In FY 2012, USADF outsourced financial management, contracting, and travel management functions to the
Bureau of Public Debt’s Administrative Resource Center. This provides for an integrated Contracting, Travel,
and Financial Accounting capability to improve the contracting process through online records management,
improvements to process controls and reporting, fewer data errors, greater standardization of policy, and
increased assurances of compliance with the Federal Acquisition regulations. USADF also expanded its inter
agency agreement with the National Business Center to take on expanded Human Resource management
functions.


Improper Payments Elimination and Recovery Act (IPERA) Reporting Detail

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) requires agencies to review their
programs and activities increasing efforts to recapture Improper payments by intensifying and expanding
payment recapture audits. All agencies are required to develop a method of reviewing all programs to
identify those that are susceptible to significant erroneous payments. “Significant” means that an
estimated error rate and a dollar amount exceed the threshold of 2.5 percent of programs outlays and $10
million of total program or activity payments made during the fiscal year reported or $100,000,000
regardless of the improper payment percentage of total program outlays. During FY 2012, USADF
reports no improper payments.

Limitations of Financial Statements

USADF's principal financial statements have been prepared to report the financial position and results of
operations, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared
from books and records in accordance with generally accepted accounting principles (GAAP) for federal
entities and the formats prescribed by the Office of Management and Budget, the statements are in addition to
the financial reports used to monitor and control budgetary resources which are prepared from the same books
and records. The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.

ANNUAL PERFORMANCE INFORMATION

Program Achievements

It should be noted that USADF achieved several significant steps forward in 2012 programs. Working
from a base budget of $30 million, dealing with several continuing resolutions (CRs), and undertaking a
major outsourcing effort USADF was able to provide over $20 million of quality grants and technical
resources to improve lives and income levels to many of the most marginalized and underserved
communities in Africa. At the same time, process times for critical grant activities have been reduced by
more than 50%. Quality control and monitoring and evaluation are a critical priority for all program
outputs and activities.

In 2012, USADF used over $1.6 million of African host government strategic partner matching funds to
stretch U.S. tax dollars further in reaching under-served communities.



                                                     22
  Management has established seven operational priorities to ensure that USADF is effectively meeting its
  obligations to the United States taxpayer and making a positive impact in Africa. The majority of these
  focus on USADF programming activities and achieving greater cost effectiveness in operations in order to
  increase the amount of appropriated dollars going directly to poor communities in Africa.



      2009 - 2012 Operational Priorities

      1. Model high effectiveness and low overhead operations.

      2. Focus program activities on marginalized communities in Africa.

      3. Invest in Africans and their ideas through participatory development.

      4. Ensure projects produce long term social and economic results.

      5. Promote African led and managed field project support.

      6. Achieve the highest levels of openness and transparency in the U.S. government

      7. Support and develop an equal opportunity, results-driven staff team that rewards hard work,
         dedication to the mission, and personal success.



  Three simple performance measures help ensure USADF is maximizing the use of funds for development
  grants in Africa, is efficiently moving funds to Africa with minimum delays and is consistently moving
  toward lower overhead levels. The table below shows USADF achievements for 2007 through 2012.

  Comparative Performance Table:

                                                                                                      FY2012
                       FY 2007         FY 2008           FY 2009        FY 2010       FY 2011                       FY 20112
      Measure
                       Results         Results           Results        Results       Results                        Results
                                                                                                      Target

Development
Grant Funding          $15 million     $18 million       $25 million    $22 million   $26 million   $21.9 million   $20 million
Levels1

Grant 1st
Disbursement           214 days        146 days          78 days        57 days        53 days        45 days       48 days
Timing

Operating
                         46%             36%               35%            34%           28%            <32%           30%
Expense Ratio2

  1
   Cooperative Agreement Grants and Project Grants including use of Strategic Partner Funds
  2
      Operating Expenses / Current Year Appropriations




                                                                   23
Development and Partner Cooperative Agreement grant funding levels decreased significantly
from $26 million in 2011 to $20 million in 2011 due to less federal carry forward and strategic
partner funds available for new obligations. The target of $21.9 million in grant funding was
missed primarily due to the non-receipt of strategic partner matching funds from Uganda and
Malawi.


USADF continues to make progress in improving disbursement times. Disbursement timing represents
the number of days between the date a legal grant agreement was established and the date funds were
released for use by the grantee. In FY 2012, USADF continued to improve disbursement cycle time for
both first and second disbursements.

Operating Expense levels have declined by more than 20% over a five year period while increasing
program activities as reflected in the improved OE ratios shown above. In FY 2011 and 2012,
management took further actions to reduce costs by outsourcing core administrative functions. This puts
ADF in a better position for lower appropriations in FY 2012 as well as on a stable track to scale up
program activities as additional operating funds become available.

Other Program Performance Indicators

A detailed set of USADF performance indicators is displayed in the table below. Performance
indicators in FY 2009 showed some declines due to the shifting nature of USADF grant portfolio
from a small and medium sized business focus to marginalized populations in Africa. The
“investment multiplier” decreased from 6.3 in FY 2008 to 3.5 in FY 2010. This indicator tracks
how much sales revenues increased for each USADF dollar provided to that enterprise. Three
measures increased in 2009: export growth, the number of direct beneficiaries, and wages paid.
Although considerable time and effort is needed to develop sustainable economic growth in
marginalized communities, USADF grantees prove they can productively use USADF funds to
increase revenues and expand operations.




                                                  24
  Key Performance Indicators FY 2010
  (FY 2011/12 Indicators are still being finalized at the time of this report. We expect the final report to be
  completed by the end of January, 2013)
              Indicator                 FY06 Actual   FY07 Actual    FY08 Actual     FY09 Actual     FY10 Actual

Cumulative Revenue Growth, active
and recently expired (USD                 $43,288       $63,044        $112,355        $106,498        $47,863
thousands)

Investment Multiplier, active and
                                            2.0             3.8           6.3             3.7             3.5
recently expired

Owners, Full-Time Workers, and
Principal Raw Material Suppliers or       46,553         44,464         106,814         129,400        185,901
Farms, active

Women As Percent of Owners,
                                           62%              84%           79%            70%             77%
Workers, Members and Suppliers

Sustainability, expired grants             62%              84%          79%             70%             70%

Countries with active EEG and OAGs          15              16             19             19              19

Funds received from Strategic Partner
                                         2,567,082      3,402,652      4,713,823       3,809,552      4,864,273
countries (USD)

Average days from obligation to 1st
                                            NA              160           146             76              62
disbursement

Overhead ($000)                            8,606         10,484          10,604         11,334          10,320

O/E (Operating Expense to Total
                                           30%              32%          26%             25%             24%
Funds Available)




                                                       25
                                                                

October 25, 2012

                UNITED STATES AFRICAN DEVELOPMENT FOUNDATION

                                MESSAGE FROM THE CFO

I am pleased to present the fiscal year 2012 comparative Financial Statements for the United States
African Development Foundation (USADF). The financial statements and performance results data are
complete and reliable and are in accordance with OMB requirements. They are also in conformity with
generally accepted accounting principles.

The USADF’s administrative and fiscal accounting systems for the year ended September 30, 2012 fully
comply with the requirements of the Federal Financial Management Improvement Act (FFMIA).

USADF is in substantial compliance with the requirements of the Federal Managers’ Financial Integrity
Act of 1982 (FMFIA). The USADF has appropriate management controls in place to ensure that internal
controls are operating in accordance with applicable policies and procedures and are effective in meeting
the requirements imposed by the FMFIA and FFMIA.


/s/

William E. Schuerch, Chief Financial Officer




                                                   26
          SECTION II


INDEPENDENT AUDITOR’S REPORTS
THIS PAGE INTENTIONALLY LEFT BLANK
                      Certified Public Accountants
                      & Consultants



                
                                          Independent Auditor's Report on Financial Statements
    www.gkacpa.com
                               Inspector General, U.S. Agency for International Development, and
                               Board of Directors and the President,
                               United States African Development Foundation:

                               We have audited the accompanying balance sheets of the United States African
                               Development Foundation (USADF) as of September 30, 2012 and 2011, and
                               the related statements of net cost, changes in net position, budgetary resources,
                               and custodial activity, hereinafter referred to as “financial statements” for the
                               years then ended. These financial statements are the responsibility of USADF’s
                               management. Our responsibility is to express an opinion on these financial
                               statements based on our audits.

                               We conducted our audits in accordance with auditing standards generally
                               accepted in the United States of America; the standards applicable to financial
                               audits contained in Government Auditing Standards, issued by the Comptroller
                               General of the United States; and applicable provisions of Office of
                               Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
                               Financial Statements, as amended. Those standards require that we plan and
                               perform the audits to obtain reasonable assurance about whether the financial
                               statements are free of material misstatement. An audit includes examining, on
                               a test basis, evidence supporting the amounts and disclosures in the financial
                               statements. An audit also includes assessing the accounting principles used
                               and significant estimates made by management, as well as evaluating the
                               overall financial statement presentation. We believe that our audits provide a
                               reasonable basis for our opinion.

                               In our opinion, the financial statements referred to above present fairly, in all
                               material respects, the financial position of USADF as of September 30, 2012,
                               and its net costs, changes in net position, and budgetary resources for the year
                               then ended in conformity with accounting principles generally accepted in the
                               United States of America.

                               The information in the Management Discussion and Analysis is not a required
                               part of the financial statements, but is supplementary information required by
      1015 18th Street, NW
            Suite 200          accounting principles generally accepted in the United States of America and
     Washington, DC 20036      OMB Circular A-136, Financial Reporting Requirements.
       Tel: 202-857-1777
       Fax: 202-857-1778




                                                     Member of the American Institute of Certified Public Accountants
We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
October 31, 2012, on our consideration of USADF’s internal control over financial reporting,
and on our tests of its compliance with certain provisions of applicable laws, regulations, and
contracts. These reports are an integral part of an audit performed in accordance with
Government Auditing Standards, and should be read in conjunction with this report in
considering the results of our audit.




October 31, 2012




                                              28
 
                                                                     
                                                                           
                         Certified Public Accountants
                         & Consultants



                                     Independent Auditor's Report on Internal Control over Financial
                                                              Reporting

                                Inspector General, U.S. Agency for International Development, and
            
                                Board of Directors and the President,
                                United States African Development Foundation:
www.gkacpa.com
                                We have audited the balance sheet and the related statements of net cost,
                                changes in net position, budgetary resources, and custodial activity, hereinafter
                                referred to as “financial statements” of the United States African Development
                                Foundation (USADF) as of and for the year ended September 30, 2012, and
                                have issued our report thereon dated October 31, 2012. We conducted our
                                audit in accordance with auditing standards generally accepted in the United
                                States of America; the standards applicable to financial audits contained in
                                Government Auditing Standards, issued by the Comptroller General of the
                                United States; and applicable provisions of Office of Management and Budget
                                Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
                                amended.

                                In planning and performing our audit, we considered USADF’s internal control
                                over financial reporting by obtaining an understanding of the design
                                effectiveness of USADF’s internal control, determined whether these internal
                                controls had been placed in operation, assessed control risk, and performed
                                tests of controls as a basis for designing our auditing procedures for the
                                purpose of expressing our opinion on the financial statements. We limited our
                                internal control testing to those controls necessary to achieve the objectives
                                described in OMB Bulletin No. 07-04 and Government Auditing Standards.
                                We did not test all internal controls relevant to operating objectives as broadly
                                defined by the Federal Managers’ Financial Integrity Act of 1982, such as
                                those controls relevant to ensuring efficient operations. The objective of our
                                audit was not to provide an opinion on the effectiveness of USADF’s internal
                                control over financial reporting. Consequently, we do not provide an opinion
                                on the effectiveness of USADF’s internal control over financial reporting.

                                Our consideration of the internal control over financial reporting was for the
                                limited purpose described in the preceding paragraph and was not designed to
                                identify all deficiencies in internal control over financial reporting that might
                                be deficiencies, significant deficiencies, or material weaknesses. A deficiency
                                in internal control exists when the design or operation of a control does not
  1015 18th Street, NW          allow management or employees, in the normal course of performing their
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777
   Fax: 202-857-1778                                                    Member of the American Institute of Certified Public Accountants
assigned functions, to prevent or detect and correct misstatements on a timely basis

A significant deficiency is a deficiency or combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. A material weakness is a deficiency, or a combination of deficiencies, in
internal control, such that there is a reasonable possibility that a material misstatement of the
entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

We did not identify any deficiencies in internal control over financial reporting that we consider
to be a material weakness, as defined above.

We noted a certain matter involving internal control and its operation that we reported to
management of USADF in a separate letter dated October 31, 2012.

This report is intended solely for the information and use of the Management of USADF, the
Office of Inspector General of the U.S. Agency for International Development, the Government
Accountability Office, OMB, and the U.S. Congress, and is not intended to be, and should not be
used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 31, 2012




                                                30
                                                                       
                         Certified Public Accountants
                         & Consultants




                                          Independent Auditor's Report on Compliance with
                                                       Laws and Regulations
www.gkacpa.com
                             Inspector General, U.S. Agency for International Development, and
                             Board of Directors and the President,
                             United States African Development Foundation:

                             We have audited the balance sheet and the related statements of net cost,
                             changes in net position, budgetary resources, and custodial activity, hereinafter
                             referred to as “financial statements” of the United States African Development
                             Foundation (USADF) as of and for the year ended September 30, 2012, and
                             have issued our report thereon dated October 31, 2012. We conducted our
                             audit in accordance with auditing standards generally accepted in the United
                             States of America; the standards applicable to financial audits contained in
                             Government Auditing Standards, issued by the Comptroller General of the
                             United States; and, the applicable provisions of Office of Management and
                             Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
                             Statements, as amended.

                             The management of USADF is responsible for complying with laws and
                             regulations applicable to USADF. As part of obtaining reasonable assurance
                             about whether USADF’s financial statements are free of material
                             misstatement, we performed tests of its compliance with certain provisions of
                             laws and regulations and contracts, noncompliance with which could have a
                             direct and material effect on the determination of financial statement amounts,
                             and certain provisions of other laws and regulations specified in OMB Bulletin
                             No. 07-04, including certain requirements referred to in Section 803(a) of the
                             Federal Financial Management Improvement Act (FFMIA) of 1996. We
                             limited our tests of compliance to the provisions described in the preceding
                             sentence, and we did not test compliance with all laws, regulations and
                             contracts applicable to USADF. However, our objective was not to provide an
                             opinion on overall compliance with laws, regulations and contracts.
                             Accordingly, we do not express such an opinion.

                             The results of our tests of compliance with laws, regulations and contracts
                             described in the preceding paragraph, exclusive of FFMIA, disclosed no
  1015 18th Street, NW       instances of noncompliance that are required to be reported under Government
        Suite 200            Auditing Standards or OMB Bulletin No. 07-04.
 Washington, DC 20036
   Tel: 202-857-1777
   Fax: 202-857-1778

                                                                Member of the American Institute of Certified Public Accountants
Under FFMIA, we are required to report whether USADF’s financial management systems
substantially comply with (1) federal financial management systems requirements (FFMSR),
(2) applicable federal accounting standards, and (3) the United States Government Standard
General Ledger at the transaction level in accordance with FFMIA Section 803(a)
requirements.

The results of our tests disclosed no instances in which USADF’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of USADF, the
Office of Inspector General of the U.S. Agency for International Development, the
Government Accountability Office, OMB, and the U.S. Congress, and is not intended to be,
and should not be used by anyone other than these specified parties. However, this report is a
matter of public record and its distribution is not limited.




October 31, 2012




                                                     32
          SECTION III



FINANCIAL STATEMENTS AND NOTES
THIS PAGE INTENTIONALLY LEFT BLANK




                  

                  
                                   U.S. AFRICAN DEVELOPMENT FOUNDATION
                                               BALANCE SHEET
                                  AS OF SEPTEMBER 30, 2012 AND 2011 (In Dollars)



                                                                           2012                    2011
    Assets:
      Intragovernmental
         Fund Balance With Treasury (Note 2)                       $     32,559,397           $   32,342,219
      Total Intragovernmental                                            32,559,397               32,342,219

      Cash, and Other Monetary Assets (Note 3)                            4,934,940                6,251,959
      Accounts Receivable, Net (Note 4)                                     400,853                      870
      Property, Equipment, and Software, Net (Note 5)                       361,330                  200,318
      Other (Note 6)                                                      3,153,764                3,537,060
    Total Assets                                                   $     41,410,284           $   42,332,426


    Liabilities:
      Intragovernmental
         Other (Note 8)                                            $        409,134           $      58,896
      Total Intragovernmental                                               409,134                  58,896

      Accounts Payable                                                         44,948                     -
      Other (Note 8)                                                         551,136                452,120
    Total Liabilities                                              $       1,005,218          $     511,016

    Net Position:
      Unexpended Appropriations                                    $     35,008,410           $   35,085,681
      Cumulative Results of Operations                                    5,396,656                6,735,729
      Total Net Position                                           $     40,405,066           $   41,821,410
    Total Liabilities and Net Position                             $     41,410,284           $   42,332,426
 




                                                        33

                 The accompanying notes are an integral part of these financial statements.
 
 

                                   U.S. AFRICAN DEVELOPMENT FOUNDATION
                                            STATEMENT OF NET COST
                            FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2012 AND 2011
                                                  (In Dollars)

                                                                   2012                            2011
    Program Costs:
      Foreign Grant Program:
        Gross Costs (Note 11)                          $      23,846,812                 $    23,449,408
        Less: Earned Revenue                                           -                        (296,484)
        Net Program Costs                               $     23,846,812                 $    23,152,924


    Costs Not Assigned To Programs                      $      9,219,652                 $     9,271,815
    Net Cost of Operations (Note 10)                    $     33,066,464                 $    32,424,739




                                                      34

                 The accompanying notes are an integral part of these financial statements.
 


                                U.S. AFRICAN DEVELOPMENT FOUNDATION
                                STATEMENT OF CHANGES IN NET POSITION
                         FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2012 AND 2011
                                               (In Dollars)

                                                                           2012                   2011

    Cumulative Results of Operations:
    Beginning Balances                                              $       6,735,729         $     9,718,983
    Adjustments
      Changes In Accounting Principles                                              -               (201,666)
    Beginning Balances, as Adjusted                                         6,735,729               9,517,317

    Budgetary Financing Sources:
      Appropriations Used                                                  29,639,694              29,141,865
      Donations and Forfeitures of Cash and Cash Equivalents                1,554,104                 206,705

    Other Financing Sources (Non-Exchange):
      Imputed Financing Sources (Note 12)                                     533,593                 294,581
    Total Financing Sources                                                31,727,391              29,643,151
    Net Cost of Operations                                                (33,066,464)            (32,424,739)
    Net Change                                                             (1,339,073)             (2,781,588)
    Cumulative Results of Operations                                $       5,396,656         $     6,735,729

    Unexpended Appropriations:
    Beginning Balances                                              $      35,085,681         $    35,666,873

    Budgetary Financing Sources:
      Appropriations Received                                              30,000,000              29,441,000
      Other Adjustments                                                      (437,577)               (880,327)
      Appropriations Used                                                 (29,639,694)            (29,141,865)
    Total Budgetary Financing Sources                                         (77,271)               (581,192)
    Total Unexpended Appropriations                                 $      35,008,410         $    35,085,681
    Net Position                                                    $      40,405,066         $    41,821,410

 




                                                        35

                 The accompanying notes are an integral part of these financial statements.
 
                                 U.S. AFRICAN DEVELOPMENT FOUNDATION
                                  STATEMENT OF BUDGETARY RESOURCES
                          FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2012 AND 2011
                                                (In Dollars)

                                                                             2012                 2011
    Budgetary Resources:
    Unobligated Balance Brought Forward, October 1                    $     10,465,456        $   11,489,316
    Recoveries of Prior Year Unpaid Obligations                              3,691,672               210,693
    Other changes in unobligated balance                                      (437,577)             (880,327)
    Unobligated balance from prior year budget authority, net               13,719,551            10,819,682
    Appropriations                                                          31,554,104            29,721,232
    Total Budgetary Resources                                         $     45,273,655        $   40,540,914

    Status of Budgetary Resources:
    Obligations Incurred (Note 14)                                    $     39,525,824        $   30,075,458
    Unobligated balance, end of year:
          Apportioned                                                        2,161,564             5,244,083
          Exempt from apportionment                                          1,319,247             2,232,652
          Unapportioned                                                      2,267,020             2,988,721
    Total unobligated balance, end of year                                   5,747,831            10,465,456
    Total Budgetary Resources                                         $     45,273,655        $   40,540,914

    Change in Obligated Balance:
    Unpaid Obligations, Brought Forward, October 1                    $      28,128,722       $    31,978,397
    Obligations Incurred                                                     39,525,824            30,075,458
    Outlays (gross)                                                         (32,216,368)          (33,714,440)
    Recoveries of Prior Year Unpaid                                          (3,691,672)             (210,693)
    Obligated balance, end of year
         Unpaid obligations, end of year                                    31,746,506            28,128,722
    Obligated balance, end of year                                    $     31,746,506        $   28,128,722

    Budget Authority and Outlays, Net:
    Budget authority, gross                                           $     31,554,104        $   29,721,232
    Budget Authority, net                                             $     31,554,104        $   29,721,232

    Outlays, gross                                                    $     32,216,368        $   33,714,440
    Agency outlays, net                                               $     32,216,368        $   33,714,440

 
 
 
 
 
 
 
 
 

                                                           36

                 The accompanying notes are an integral part of these financial statements.
 
 
 
 
                             U.S. AFRICAN DEVELOPMENT FOUNDATION
                                STATEMENT OF CUSTODIAL ACTIVITY
                      FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2012 AND 2011
                                            (In Dollars)

                                                                         2012                 2011
    Revenue Activity:
      Accrual Adjustments (Note 16)                                $        364,317       $          -
      Total Custodial Revenue                                               364,317                  -

    Disposition of Collections:
      Increase/(Decrease) in Amounts Yet to be Transferred                  364,317                  -
    Net Custodial Activity                                         $              -       $          -
 




                                                         37

                 The accompanying notes are an integral part of these financial statements.
                U.S. AFRICAN DEVELOPMENT FOUNDATION
                 NOTES TO THE FINANCIAL STATEMENTS
  NOTE 1. SUMMARY OF SIGNIFICANT                       enterprises that benefit under served and
       ACCOUNTING POLICIES                             marginalized groups in Africa.
                                                       The Foundation holds custodial receivables
A. Reporting Entity                                    that are non-entity assets and, if collected, will
                                                       be transferred to Treasury at fiscal year-end.
The United States African Development
Foundation ("USADF" or "the Foundation") is            B. Basis of Presentation
a government-owned corporation established
by Congress under the African Development              The financial statements have been prepared to
Foundation Act in 1980 and began operations            report the financial position and results of
in 1984. The Foundation has a unique mission           operations of the Foundation. The Balance
among U.S. foreign assistance programs, by-            Sheet presents the financial position of the
passing layers of inefficiencies and working           agency. The Statement of Net Cost presents
directly with the neediest communities in              the agency’s operating results; the Statement
Africa. The Foundation uses a participatory            of Changes in Net Position displays the
approach to actively engage marginalized local         changes in the agency’s equity accounts. The
community groups or enterprises in the design          Statement of Budgetary Resources presents the
and implementation of development projects.            sources, status, and uses of the agency’s
This approach ensures these programs are               resources and follows the rules for the Budget
distinctively African initiated and led, resulting     of the United States Government.
in outcomes that best address the real needs of
the community.       Together, the focus on            The statements are a requirement of the Chief
underserved populations and participatory              Financial Officers Act of 1990, the
development ensure greater equity and                  Government Management Reform Act of 1994
ownership in the development process. Project          and the Accountability of Tax Dollars Act of
success and long term impact is further                2002. They have been prepared from, and are
enhanced through USADF efforts to establish            fully supported by, the books and records of
a network of partner organizations, local non-         the Foundation in accordance with the
governmental organizations, that provide               hierarchy of accounting principles generally
project     design,     implementation        and      accepted in the United States of America,
management support to USADF grant                      standards approved by the Federal Accounting
recipients. The Foundation reporting entity is         Standards Advisory Board (FASAB), OMB
comprised of Trust Funds and General Funds.            Circular     A-136,     Financial    Reporting
                                                       Requirements and the Foundation's accounting
The Foundation maintains a Trust Fund with             policies which are summarized in this note.
the U.S. Treasury in accordance with its gift          These statements, with the exception of the
authority. Trust Funds are credited with               Statement of Budgetary Resources, are
receipts that are generated by terms of a trust        different from financial management reports,
agreement or statute.                                  which are also prepared pursuant to OMB
                                                       directives that are used to monitor and control
General Funds are accounts used to record              the Foundation's use of budgetary resources.
financial    transactions     arising    under         The financial statements and associated notes
congressional     appropriations    or   other         are presented on a comparative basis. Unless
authorizations to spend general revenues. The          specified otherwise, all amounts are presented
Foundation provides grants and program                 in dollars.
support to community groups and small


                                                  36
                                                  38
                                                        accounting by the recipient organizations.
C. Basis of Accounting                                  Depending on the nature of the transaction,
                                                        foreign currencies are translated into dollars at
Transactions are recorded on both an accrual            the actual exchange rate received by the
accounting basis and a budgetary basis. Under           Foundation when the transaction is made. The
the accrual method, revenues are recognized             value of obligations incurred by the
when earned, and expenses are recognized                Foundation in foreign currencies varies from
when a liability is incurred, without regard to         time to time depending on the current
receipt or payment of cash.          Budgetary          exchange rate. The Foundation adjusts the
accounting facilitates compliance with legal            value of both funds held outside of treasury
requirements on the use of federal funds.               and obligations during the year to reflect the
                                                        prevailing exchange rates.           Downward
D. Fund Balance with Treasury and Cash                  adjustments to prior year obligations based on
                                                        favorable foreign currency exchange rates will
Fund Balance with Treasury is the aggregate             be made available for obligation. Upward
amount of the Foundation’s funds with                   adjustment to prior year obligations based on
Treasury in expenditure, receipt, and deposit           unfavorable foreign currency exchange rate
fund accounts. Appropriated funds recorded in           with the U.S. dollar will be made from funds
expenditure accounts are available to pay               made available for upward adjustments.
current liabilities and finance authorized              Obligations in the appropriated multi-year
purchases. The U.S. Treasury processes cash             funds will not be adjusted based on the foreign
receipts and disbursements of appropriated              exchange rate until they are paid out.
funds. Funds held with/outside the Treasury
are available to pay agency liabilities. Funds          F. Grant Accounting
held outside US Treasury are maintained in
accounts in each country with which the                 The Foundation disburses funds to grantees to
Foundation has a Strategic Partnership                  cover their projected expenses over a three-
Agreement. Strategic Partner Governments                month period.        Grantees report to the
deposit donations into these in-country                 Foundation quarterly on the actual utilization
accounts. In general, grants are funded equally         of these funds. For purposes of these financial
with appropriated funds and donated funds               statements,      the      Foundation        treats
(funds held outside US Treasury). USADF                 disbursements to grantees as advances. The
controls all disbursements from these accounts.         total grant advance is fifty percent of the
Following is a list of banks where the funds are        amount disbursed to the grantee during the
maintained and where grant funds are                    quarter. In order to ensure timeliness in
processed: Bank Gaborone of Botswana,                   reporting grantee expenditures, the Foundation
Banco Comercial do Atlantico in Cape Verde,             will use estimates to calculate the last quarter's
Standard Chartered Bank in Ghana, Ecobank               grantee expenditures, based on historical
in Mali, Citibank and Zenith Bank in Nigeria,           expenditure trends over a five year period, and
First National Bank of Swaziland in                     disbursement activity funding that quarter's
Swaziland, Standard Chartered Bank in                   activity. The advance will be reversed in the
Zambia, EcoBank Guinea, EcoBank Benin,                  following quarter's financial statements. Once
Stanbic      Bank      of   Uganda,      Banque         a grant has closed (expired or cancelled) any
Commerciale du Rwanda, National Bank of                 excess disbursement is reclassified as an
Malawi, and EcoBank Senegal.                            Accounts Receivable.

E. Foreign Currencies                                   G. Accounts Receivable

The Foundation awards grants to private                 Accounts receivable consists of amounts owed
organizations in Africa. Most of the grants are         to the Foundation by other Federal agencies
denominated in local currencies to facilitate           and the general public. Amounts due from


                                                   39
Federal agencies are considered fully                   time of prepayment and recognized as
collectible. Accounts receivable from the               expenses when the related goods and services
public     include     reimbursements     from          are received. Grant advances are discussed
employees. An allowance for uncollectible               under Section “F. Grant Accounting.”
accounts receivable from the public is
established when, based upon a review of                J. Liabilities
outstanding accounts and the failure of all
collection efforts, management determines that          Liabilities represent the amount of monies or
collection is unlikely to occur considering the         other resources likely to be paid by the
debtor’s ability to pay.                                USADF as a result of transactions or events
                                                        that have already occurred.
H. Property, Equipment, and Software
                                                        USADF reports its liabilities under two
Property, equipment and software represent              categories, Intragovernmental and With the
furniture, fixtures, equipment, and information         Public. Intragovernmental liabilities represent
technology hardware and software which are              funds owed to another government agency.
recorded at original acquisition cost and are           Liabilities With the Public represents funds
depreciated or amortized using the straight-line        owed to any entity or person that is not a
method over their estimated useful lives.               federal agency, including private sector firms
Major alterations and renovations are                   and federal employees.        Each of these
capitalized, while maintenance and repair costs         categories may include liabilities that are
are expensed as incurred.              USADF's          covered by budgetary resources and liabilities
capitalization threshold is $20,000 for                 not covered by budgetary resources.
individual purchases. Vehicle purchases will
automatically be capitalized regardless of the          Liabilities covered by budgetary resources are
cost.     Applicable standard governmental              liabilities funded by a current appropriation or
guidelines regulate the disposal and                    other funding source.        These consist of
convertibility of agency property, equipment,           accounts payable and accrued payroll and
and software. The useful life classifications           benefits. Accounts payable represent amounts
for capitalized assets are as follows:                  owed to another entity for goods ordered and
                                                        received and for services rendered except for
Description                 Useful Life (years)         employees. Accrued payroll and benefits
                                                        represent payroll costs earned by employees
                                                        during the fiscal year which are not paid until
Leasehold Improvements                5                 the next fiscal year.
Office Furniture                      5                 Liabilities not covered by budgetary resources
Computer Equipment                    5                 are liabilities that are not funded by any
                                                        current appropriation or other funding source.
Office Equipment                      5
                                                        These liabilities consist of accrued annual
Software                              5                 leave, FECA, and unemployment insurance.
I. Advances and Prepaid Charges                         K. Annual, Sick, and Other Leave
Advance payments are generally prohibited by            Annual leave is accrued as it is earned, and the
law. There are exceptions, such as some                 accrual is reduced as leave is taken. The
reimbursable agreements, subscriptions and              balance in the accrued leave account is
payments to contractors and employees.                  adjusted to reflect current pay rates. Liabilities
Advances may be given to USADF employees                associated with other types of vested leave,
for official travel. Payments made in advance           including compensatory, restored leave, and
of the receipt of goods and services are                sick leave in certain circumstances, are accrued
recorded as advances or prepaid charges at the          at year-end, based on latest pay rates and


                                                   40
unused hours of leave. Funding will be                  Prior to December 31, 1983, all employees
obtained from future financing sources to the           were covered under the CSRS program. From
extent that current or prior year appropriations        January 1, 1984 through December 31, 1986,
are not available to fund annual and other              employees had the option of remaining under
types of vested leave earned but not taken.             CSRS or joining FERS and Social Security.
Nonvested leave is expensed when used. Any              Employees hired as of January 1, 1987 are
liability for sick leave that is accrued but not        automatically covered by the FERS program.
taken by a Civil Service Retirement System              Both CSRS and FERS employees may
(CSRS)-covered employee is transferred to the           participate in the federal Thrift Savings Plan
Office of Personnel Management (OPM) upon               (TSP). FERS employees receive an automatic
the retirement of that individual. Credit is            agency contribution equal to one percent of
given for sick leave balances in the                    pay and USADF matches any employee
computation of annuities upon the retirement            contribution up to an additional four percent of
of Federal Employees Retirement System                  pay.      USADF matches any employee
(FERS)-covered employees effective at 50%               contribution up to an additional four percent of
beginning FY2010 and 100% in 2014.                      pay. For FERS participants, USADF also
                                                        contributes the employer’s matching share of
L. Accrued and Actuarial Workers’                       Social Security.
Compensation
                                                        FERS employees and certain CSRS
The Federal Employees' Compensation Act                 reinstatement employees are eligible to
(FECA) administered by the U.S. Department              participate in the Social Security program after
of Labor (DOL) addresses all claims brought             retirement. In these instances, USADF remits
by the USADF employees for on-the-job                   the employer’s share of the required
injuries. The DOL bills each agency annually            contribution.
as its claims are paid, but payment of these
bills is deferred for two years to allow for            USADF recognizes the imputed cost of
funding through the budget process. Similarly,          pension and other retirement benefits during
employees that the USADF terminates without             the employees’ active years of service. OPM
cause      may       receive     unemployment           actuaries determine pension cost factors by
compensation        benefits      under      the        calculating the value of pension benefits
unemployment insurance program also                     expected to be paid in the future and
administered by the DOL, which bills each               communicate these factors to the USADF for
agency quarterly for paid claims. Future                current period expense reporting. OPM also
appropriations will be used for the                     provides information regarding the full cost of
reimbursement to DOL. The liability consists            health and life insurance benefits.        The
of (1) the net present value of estimated future        USADF recognized the offsetting revenue as
payments calculated by the DOL, and (2) the             imputed financing sources to the extent these
unreimbursed cost paid by DOL for                       expenses will be paid by OPM.
compensation to recipients under the FECA.
                                                        The USADF does not report on its financial
M. Retirement Plans                                     statements information pertaining to the
                                                        retirement plans covering its employees.
USADF employees participate in either the               Reporting amounts such as plan assets,
CSRS or the FERS. The employees who                     accumulated plan benefits, and related
participate in CSRS are beneficiaries of                unfunded liabilities, if any, is the responsibility
USADF's matching contribution, equal to                 of the OPM, as the administrator.
seven percent of pay, distributed to their
annuity account in the Civil Service
Retirement and Disability Fund.



                                                   41
   N. Other Post-Employment Benefits                      of assets, liabilities, revenues, and expenses,
                                                          and in the note disclosures. Actual results
   USADF employees eligible to participate in             could differ from those estimates.
   the Federal Employees' Health Benefits Plan
   (FEHBP) and the Federal Employees' Group               P. Imputed Costs/Financing Sources
   Life Insurance Program (FEGLIP) may
   continue to participate in these programs after        Federal Government entities often receive
   their retirement. The OPM has provided the             goods and services from other Federal
   USADF with certain cost factors that estimate          Government entities without reimbursing the
   the true cost of providing the post-retirement         providing entity for all the related costs. In
   benefit to current employees. The USADF                addition, Federal Government entities also
   recognizes a current cost for these and Other          incur costs that are paid in total or in part by
   Retirement Benefits (ORB) at the time the              other entities. An imputed financing source is
   employee's services are rendered. The ORB              recognized by the receiving entity for costs
   expense is financed by OPM, and offset by the          that are paid by other entities. The USADF
   USADF through the recognition of an imputed            recognized imputed costs and financing
   financing source.                                      sources in fiscal years 2012 and 2011 to the
                                                          extent directed by accounting standards.
   O. Use of Estimates
                                                          Q. Reclassification
   The preparation of the accompanying financial
   statements in accordance with generally                Certain fiscal year 2011 balances may have
   accepted accounting principles requires                been reclassified, retitled, or combined with
   management to make certain estimates and               other financial statement line items for
   assumptions that affect the reported amounts           consistency with the current year presentation.


NOTE 2. FUND BALANCE WITH TREASURY
 
Fund balance with Treasury account balances as of September 30, 2012 and 2011 were as follows:

                                                                2012                     2011
Fund Balance s:
Trust Funds                                                $        36,154          $        36,154
Appropriated Funds                                              32,523,243               32,306,065
Total                                                      $    32,559,397          $    32,342,219

Status of Fund Balance with Tre asury:
Unobligated Balance
   Available                                               $     2,161,564          $     5,244,083
   Unavailable                                                   2,267,020                2,988,721
Obligated Balance Not Yet Disbursed                             28,094,659               24,073,261
Exempt from Apportionment                                           36,154                   36,154
Total                                                      $    32,559,397          $    32,342,219


No discrepancies exist between the Fund Balance reflected on the Balance Sheet and the balances in the
Treasury accounts.



                                                     42
The available unobligated fund balances represent the current-period amount available for obligation or
commitment. At the start of the next fiscal year, this amount will become part of the unavailable balance as
described in the following paragraph.

The unavailable unobligated fund balances represent the amount of appropriations for which the period of
availability for obligation has expired. These balances are available for upward adjustments of obligations
incurred only during the period for which the appropriation was available for obligation or for paying claims
attributable to the appropriations.

The obligated balance not yet disbursed includes accounts payable, accrued expenses, and undelivered orders
that have reduced unexpended appropriations but have not yet decreased the fund balance on hand.
 
NOTE 3. CASH AND OTHER MONETARY ASSETS

USADF's funds held outside the Treasury consist of local currency donations made by African governments
and certain private sector entities for program purposes in each respective country.

Cash and other monetary assets balances as of September 30, 2012 and 2011, totaled $4,934,940 and
$6,251,959, respectively. The comparative balances are summarized below:

                                                               2012                 2011
EcoBank Mali                                                 $   823,627          $ 1,238,845
Stanbic Bank of Uganda                                           778,956              901,037
Banque Commerciale du Rwanda                                     312,180              892,145
Bank Gaborone of Botswana                                        498,661              751,392
EcoBank Benin                                                    941,854              700,646
EcoBank Senegal                                                  161,967              537,694
Banco Comercial do Atlantico, Cape Verde                         269,401              342,425
EcoBank Guinea                                                   229,102              287,432
Zenith Bank Nigeria-Kaduno                                       135,447              254,025
Zenith Bank Nigeria-Kano                                         135,447              152,284
Citibank, Nigeria-Jigawa                                          31,872               33,473
National Bank of Malawi                                          566,743               62,476
Standard Chartered, Ghana                                          2,582               31,283
First National Bank Swaziland                                     18,754               36,219
Standard Chartered Bank, Zambia                                   28,347               30,583
Total Funds Held Outside Treasury                             $   4,934,940       $   6,251,959




                                                     43
 
NOTE 4. ACCOUNTS RECEIVABLE

Accounts receivable balances as of September 30, 2012 and 2011, were as follows:
 
                                                           2012                    2011
  With the Public
   Accounts Receivable                                $      513,217          $       521,573
   Allowance                                                (112,364)                (520,703)
  Total Public Accounts Receivable                    $      400,853          $           870
  Total Accounts Receivable                           $      400,853          $           870
                                                                                                        
The accounts receivable is made up of a small amount of employee receivables and also includes terminated
grants. Historical experience has indicated that a portion of the receivables will not be collectible.

Accounts receivable from the public are shown net of allowances for uncollectible amounts of $400,853 and
$870, as of September 30, 2012 and 2011, respectively.

NOTE 5. PROPERTY, EQUIPMENT, AND SOFTWARE
 
Schedule of Property, Equipment, and Software as of September 30, 2012

                                                      Accumulated
                                 Acquisition          Amortization/           Net Book
Major Class                         Cost              De pre ciation           Value
Furniture & Equipment           $   1,642,322         $    1,280,992        $     361,330
Total                           $   1,642,322         $    1,280,992        $     361,330


Schedule of Property, Equipment, and Software as of September 30, 2011

                                                      Accumulated
                                Acquisition           Amortization/           Net Book
Major Class                        Cost               De pre ciation           Value
Furniture & Equipment          $     914,359          $      714,041        $     200,318
Total                          $     914,359          $      714,041        $     200,318




                                                    44
NOTE 6. OTHER ASSETS

Other assets account balances as of September 30, 2012 and 2011, were as follows:
                                                           2012                        2011
With the Public
  Grant Advances                                       $    3,141,045          $        3,537,060
  Travel Advances                                              12,719                           -
Total Public Other Assets                              $    3,153,764          $        3,537,060
                                                                                                      
NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
 
The liabilities for USADF as of September 30, 2012 and 2011 include liabilities not covered by budgetary
resources. Congressional action is needed before budgetary resources can be provided. Although future
appropriations to fund these liabilities are likely and anticipated, it is not certain that appropriations will be
enacted to fund these liabilities.

                                                                  2012                  2011
Intragovernmental – FECA                             $                 2,344       $        2,345
Intragovernmental – Unemployment Insurance                                 -                9,858
Unfunded Leave                                                       316,230              284,495
Total Liabilities Not Covered by Budgetary Resources $               318,574       $      296,698
Total Liabilities Covered by Budgetary Resources                     686,644              214,318
Total Liabilities                                    $             1,005,218       $      511,016

FECA and the Unemployment Insurance liabilities represent the unfunded liability for actual workers
compensation claims and unemployment benefits paid on USADF's behalf and payable to the DOL.

Unfunded leave represents a liability for earned leave and is reduced when leave is taken. The balance in the
accrued annual leave account is reviewed quarterly and adjusted as needed to accurately reflect the liability at
current pay rates and leave balances. Accrued annual leave is paid from future funding sources and,
accordingly, is reflected as a liability not covered by budgetary resources. Sick and other leave is expensed as
taken.




                                                       45
 
NOTE 8. OTHER LIABILITIES
 
Other liabilities account balances as of September 30, 2012 were as follows:
                                                Current                Non Current           Total
Intragovernmental
  FECA Liability                            $        2,344         $                 -   $           2,344
  Payroll Taxes Payable                             42,473                           -           42,473
 Custodial Liability                                      -                 364,317            364,317
Total Intragovernmental Other Liabilities   $       44,817         $        364,317      $     409,134


With the Public
  Payroll Taxes Payable                     $        5,262         $                 -   $           5,262
  Accrued Funded Payroll and Leave                 229,644                           -         229,644
  Unfunded Leave                                   316,230                           -         316,230
Total Public Other Liabilities              $      551,136         $                 -   $     551,136

                                                                                                              
 
Other liabilities account balances as of September 30, 2011 were as follows:
                                                Current                Non Current           Total
Intragovernmental
  FECA Liability                            $        2,345         $                 -   $           2,345
  Unemployment Insurance Liability                   9,858                           -               9,858
  Payroll Taxes Payable                             46,693                           -           46,693
Total Intragovernmental Other Liabilities   $       58,896         $                 -   $       58,896


With the Public
  Accrued Funded Payroll and Leave          $      167,625         $                 -   $     167,625
  Unfunded Leave                                   284,495                           -         284,495
Total Public Other Liabilities              $      452,120         $                 -   $     452,120

                                                                                                              




                                                              46
 
NOTE 9. LEASES
 
Operating Leases
USADF occupies office space in Washington, DC under a lease agreement that is accounted for as an
operating lease. The lease term is for a period of ten years and commenced on May 1, 2008 and expires on
April 30, 2018. Lease payments are increased annually based on the adjustments for operating cost and real
estate tax escalations. Below is a schedule of future payments for the term of the lease.

Fiscal Year                                                                           Building
2013                                                                              $          791,444
2014                                                                                         815,142
2015                                                                                         835,506
2016                                                                                         856,433
Thereafter                                                                                 1,397,274
Total Future Payments                                                             $        4,695,799


The operating lease amount does not include estimated payments for leases with annual renewal options.
USADF enters into year-to-year leases in the countries with established Country Representative Offices.

NOTE 10. NET COST OF OPERATIONS

Costs by major budget object classification as of September 30, 2012 and 2011 are as follows:

                                                                 2012                   2011 
Personnel compensation                                    $        3,989,675     $           3,227,753 
Personnel benefits                                                 1,357,299                 1,133,267
Benefits to former employees                                          20,168                         ‐
Travel and transportation of persons                                 625,906                   836,190
Rent, communications, and utilities, etc.                            978,404                   909,590
Printing                                                              15,512                    34,659
Other services                                                     2,792,894                 3,987,182
Supplies and materials                                               135,685                   752,441
Equipment                                                             82,430                    97,217
Land & structures                                                     15,106                         ‐
Grants, subsidies & contributions                                23,053,385               21,446,440
Total Net Cost of Operations                              $     33,066,464      $         32,424,739




                                                     47
NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE
 
Intragovernmental costs and revenue represent exchange transactions between USADF and other federal
government entities, and are in contrast to those with non-federal entities (the public). Such costs and revenue
are summarized as follows:

                                                               2012                   2011
Foreign Grant Program
  Public Costs                                         $       23,846,812        $    23,449,408
   Total Program Costs                                         23,846,812             23,449,408
      Public Earned Revenue                                             -               (296,484)
   Net Program Costs                                           23,846,812             23,152,924

Costs Not Assigned To Programs                                  9,219,652              9,271,815
Total Net Cost                                         $       33,066,464        $    32,424,739


NOTE 12. IMPUTED FINANCING SOURCES
 
USADF recognizes as imputed financing the amount of accrued pension and post-retirement benefit expenses
for current employees. The assets and liabilities associated with such benefits are the responsibility of the
administering agency, OPM.    For the periods ended September 30, 2012 and 2011, respectively, imputed
financing was as follows:

                                                                2012                  2011
Office of Personnel Management                             $      533,593         $     294,581
Total Imputed Financing Sources                            $      533,593         $     294,581


NOTE 13. BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE UNITED
STATES GOVERNMENT
 
The President’s Budget that will include fiscal year 2012 actual budgetary execution information has not yet
been published. The President’s Budget is scheduled for publication in February 2013 and can be found at the
OMB Web site: http://www.whitehouse.gov/omb/. The 2013 Budget of the United States Government, with
the "Actual" column completed for 2011, has been reconciled to the Statement of Budgetary Resources and
there were no material differences.




                                                      48
NOTE 14. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED
 
Obligations incurred and reported in the Statement of Budgetary Resources in 2012 consisted of the following:
 
                                                          2012                     2011
 Direct Obligations, Category A                        $   9,089,678           $    8,781,494
 Direct Obligations, Category B                           27,162,527               21,293,964
 Direct Obligations, Category C                            3,273,619                          -
 Total Obligations Incurred                            $ 39,525,824            $ 30,075,458
                                                                                                    
Category A apportionments distribute budgetary resources by fiscal quarters.

Category B apportionments typically distribute budgetary resources by activities, projects, objects or a
combination of these categories.

Category C apportionments may be used to apportion funds into future fiscal years.
 
NOTE 15. UNDELIVERED ORDERS AT THE END OF THE PERIOD

For the periods ended September 30, 2012 and 2011, undelivered orders amounted to the following:
 
                                                         2012                    2011
 Undelivered Orders                                 $      34,577,943      $       31,451,463
 Total Undelivered Orders                           $      34,577,943      $       31,451,463


NOTE 16. CUSTODIAL ACTIVITY

The USADF is an administrative agency collecting for the General Fund. Currently there are no actual
collections, but a balance is reported for accrual adjustments. This represents accounts receivable due to the
USADF which was associated with cancelled funds and, if collected, will be returned to Treasury.




                                                       49
NOTE 17. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

USADF has reconciled its budgetary obligations and non-budgetary resources available to its net cost of
                                                                          2012             2011
        Resources Used to Finance Activities:
        Budgetary Resources Obligated
          Obligations Incurred                                          $  39,525,824  $    30,075,458
          Spending Authority From Offsetting Collections and Recoveries    (3,691,672)        (210,693)
          Obligations Net of Offsetting Collections and Recoveries         35,834,152       29,864,765
        Other Resources
          Imputed Financing From Costs Absorbed By Others                     533,593          294,581
        Total Resources Used to Finance Activities                         36,367,745       30,159,346

              Resources Used to Finance Items Not Part of the Net Cost of Operations:
                Change In Budgetary Resources Obligated For Goods,
                  Services and Benefits Ordered But Not Yet Provided                           (3,126,479)        2,330,017
                Resources That Fund Expenses Recognized In Prior Periods                           (9,858)           (7,783)
                Budgetary Offsetting Collections and Receipts That Do
                  Not Affect Net Cost of Operations
                  Other                                                                                 -           206,705
                Resources That Finance the Acquisition of Assets                                 (397,955)         (194,576)
                Other Resources or Adjustments to Net Obligated Resources
                  That Do Not Affect Net Cost of Operations                                             -           (73,527)
                Total Resources Used to Finance Items Not Part of Net Cost of Operations       (3,534,292)        2,260,836
              Total Resources Used to Finance the Net Cost of Operations                       32,833,453        32,420,182

              Components of the Net Cost of Operations That Will Not Require or
              Generate Resources in the Current Period:
              Components Requiring or Generating Resources in Future Periods
                Increase In Annual Leave Liability                                                31,736                 -
                Other                                                                                  -            12,202
                Total Components of Net Cost of Operations That Will Require or
                  Generate Resources In Future Periods                                            31,736            12,202
              Components Not Requiring or Generating Resources
                Depreciation and Amortization                                                    236,943            150,008
                Revaluation of Assets or Liabilities                                                   -           (156,783)
                Other                                                                            (35,668)              (870)
                Total Components of Net Cost of Operations That Will Not Require or
                  Generate Resources                                                             201,275             (7,645)
              Total Components of Net Cost of Operations That Will Not Require or
                Generate Resources In The Current Period                                          233,011             4,557
              Net Cost of Operations                                                       $   33,066,464    $   32,424,739
operations.




                                                                 50
NOTE 18. CONTINGENT LIABILITIES

USADF records commitments and contingent liabilities for legal cases in which payment has been deemed
probable and for which the amount of potential liability has been estimated. There were no contingent
liabilities as of September 30, 2012. According to the Foundation's legal counsel, the likelihood of
unfavorable outcomes for any legal actions and claims is remote. In the opinion of the Foundation's
management, the ultimate resolution of any proceedings, actions, and claims will not materially affect the
financial position or results of operations of the Foundation.




                                                   51
          SECTION IV



OTHER ACCOMPANYING INFORMATION
 
 
                                U.S. AFRICAN DEVELOPMENT FOUNDATION
                                         SCHEDULE OF SPENDING
                             FOR THE FISCAL YEAR ENDED SEPTEMBER 30, 2012
                                               (In Dollars)

                                                                            2012
    What Money is Available to Spend?

    Total Resources                                                          $ 45,273,655
    Less Amount Available but Not Agreed to be Spent                            3,480,811
    Less Amount Not Available to be Spent                                       2,267,020
    Total Amounts Agreed to be Spent                                         $ 39,525,824

    How was the Money Spent?

    Category
    Personnel compensation                                                    $ 3,896,153
    Personnel benefits                                                            822,665
    Benefits to former employees                                                   30,026
    Travel and transportation                                                     635,218
    Rents, communications, etc.                                                   978,208
    Printing                                                                       15,512
    Other Services                                                              2,808,376
    Supplies and material                                                         126,356
    Equipment                                                                     194,758
    Land and Structures                                                            15,106
    Grants, subsidies and contributions                                        22,693,990
    Total Spending                                                             32,216,368
      Unpaid obligations, end of year                                          31,746,506
      Less Unpaid obligations brought forward, October 1                       28,128,722
      Plus Recoveries                                                           3,691,672
    Amounts Remaining to be Spent                                               7,309,456
    Total Amounts Agreed to be Spent                                         $ 39,525,824

    Where did the Money go to?

    Federal Obligations                                                       $ 2,044,293
    Non-Federal Obligations                                                     36,227,745
    Non-Federal (Personal Service Contractors)                                   1,253,786
    Total Amounts Agreed to be Spent                                          $ 39,525,824

 
 
 
 
 


                                                           52
